CERTIFICATE OF COMPLIANCE
No. 19-25
IRMA ROSAS,
Petitioner
v.
ROMAN CATHOLIC ARCHDIOCESE OF CHICAGO,
Respondent
As required by Supreme Court Rule 44,1 certify that the petition for
rehearing contains words 800, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

l)&s. tit?+

2019

Irma Rosas, pro se
6333 Slouth Lavergne Ave
Chicago, Illinois 60638
Telephone: (773) 627-8330
E-mail: irmarosaswebsite@gmail.com

RECEIVED
DEC 1 0 2019

gB&Y<asffgr

